 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MEDICARE PAYMENTS FOR ORTHOTIC

         BODY JACKETS





                    JUNE GIBBS BROWN
                     Inspector General

                         JUNE 1994
                       OEI-O4-92-O1O8O
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


Atlanta Retion                                                      Headquarters

Jacqueline Andrews, Project Leader                                  Tom Noplock

Betty Apt, Team Leader                                              Barbara Tedesco

Peggy Daniel

Josiah Townsel


For additional copies of this report, please contact the Atlanta Regional Office at 404-730-

9452.

 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERA                .




MEDICARE PAYMENTS FOR ORTHOTIC
         BODY JACKETS
              EXECUTIVE                        SUMMARY


PURPOSE

To determine whether or not Medicare is appropriately billed for orthotic body
jackets.

BACKGROUND

In February 1992, the Office of Inspector General (OIG) received an allegation from
a company which provides Medicare billing services to nursing homes. The allegation
was that durable medical equipment (DME) suppliers were billing Medicare
approximately $1,200 per device for devices consisting of “nothing more than a $50
piece of foam rubber.” The bills were submitted to Medicare under HCFA’S Common
Procedure Coding System (HCPCS) code L0430. This code represents an orthotic
device commonly used to treat injuries to the spine such as vertebra fractures and
compressions, and to facilitate healing following a surgical procedure on the spine or
related tissue.

FINDINGS

Medicare ClaimsandAllowed Cha~es for OrthoticBody JacketsHave Increased
SubstantiallySince 1990

Medicare claims paid under HCPCS code L0430 remained relatively steady until 1990.
The number of claims submitted to Medicare increased 6,400 percent by the end of
FY 1992. Likewise, allowed Medicare charges increased over 8,200 percent.
Preliminary data for 1993 shows a 50 percent reduction in claims submitted and
Medicare allowed charges. However, the claims and charges are still significantly
higher than the 1990 levels.

Ninety-FivePe~ent of the OrthoticBody Jack% CikirnsPaid by Medicare Were For Non-
Legi”timateDw”ces

Ninety-five percent of the devices claimed under code L0430 did not meet
construction requirements and medical purpose of a legitimate body jacket.   Many of
the devices were primarily used to keep patients upright in a wheelchair.

Medicare Paynmm For Non-LegitimateDew”cesErceeded $7 Millwn In 1991

Total Medicare payments for non-legitimate devices exceeded $7 million in 1991, and
may have increased to as much as $13.7 million in 1992. Medicaid funds were also at
risk. Payment of the 20 percent Medicare co-payment by Medicaid could have
resulted in as much as $670 thousand of inappropriate payments in 1991.



                                           i
Non-LegitimateDm”ces Were MarketedAs An Alternative To Rewrainti

We observed that the significant increase in claims for body jackets   occurred shortly
after enactment of the Omnibus Budget Reconciliation Act of 1990       (OBRA ‘90). The
Act gave nursing home residents the right to be free from chemical     and physical
restraints. DME suppliers marketed non-legitimate body jackets to      nursing homes as
alternatives to restraints.

Mtiical Supplien UsedLuopholes ih HCFA Guidance and Monitotig To ClaimNon-
Lq#irnate Devices As Bo@ Jackm

Suppliers were able to claim devices that were non-legitimate because HCFA
guidelines generally defined medical necessity and construction requirements for a
body jacket. Suppliers took advantage of the vague definitions to assert that their
non-legitimate devices met the requirements of a body jacket. In addition, Medicare
regulations only required carriers to conduct postpayment reviews for the upper three
percent of codes with the highest Medicare payments. Since body jacket codes were
not in the upper three percent, carriers did not rapidly detect the significant increase
in code L0430 claims.

Recent HCFA Eflom May Reduce Inapproptite Payrnenfi

On October 1, 1993, HCFA started processing DME, orthotics, and prostheses claims
through four regional carriers called the Durable Medical Equipment Regional
Carriers (DMERCS). One DMERC, called the Statistical Analysis DMERC
(SADMERC), will track spending and utilization trends for all DMERCS. DMERCS
also developed new coverage and medical review guidelines for orthotic body jackets.

RECOMMENDATIONS

We recommend that HCFA require the DMERCS to closely monitor claims for body
jackets. If inappropriate body jacket claims are not discontinued in FY 1994, HCFA
should implement more stringent controls. Finally, HCFA should inform suppliers and
physicians about the abuse of body jacket codes and stress its intent to prevent such
abuse. Through stringent monitoring of orthotic body jacket codes, HCFA will
consematively avoid paying $7 million for non-legitimate devices in the future. Claims
that were found inappropriate by this study will be turned over to HCFA for recovery.

AGENCY COMMENTS

The HCFA Administrator commented on our draft report and agreed with our
recommendations.     HCFA staff believe that the regionalization of durable medical
equipment claims processing and the development of medical review policies will
strengthen their ability to monitor use the use and payment of orthotic body jackets.
We encourage HCFA to take quick corrective action if their monitoring shows that
inappropriate body jacket claims have not discontinued.


                                            ii
                      TABLE                    OF CONTENTS


                                                                                                                 PAGE

EXECUTIVE        SUMMARY

INTRODUCTION             ..................                . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1



FINDINGS

   Medicare Claims and Allowed Charges for

   Orthotic Body Jackets Have Increased

   Substantially Since 1990 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3


   Ninety-Five Percent ofthe Body Jacket Claims

   Paid by Medicare Were ForNon-Legitimate    Devices                            . . . . . . . . . . . . . . . . . . . . 4


   Medicare Payments for Non-Legitimate

   Devices Exceeded $7 Million in 1991. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7


   Non-Legitimate Devices Were Marketed asan

   Alternative to Restraints . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


   Medical Suppliers Used Loopholes in HCFA

   Guidance and Monitoring To Claim Non-Legitimate

   Devices As Body Jackets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


   Recent HCFAEfforts May Reduce Inappropriate

   Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


AGENCY COMMENTS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDICES

   Medicare and Medicaid Payments for

   Non-Legitimate Devices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


   HCFAComments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1

                         INTRODUCTION

PURPOSE

To determine whether or not Medicare is appropriately billed for orthotic body
jackets.

BACKGROUND

Medicare I+ogram

Medicare is a Federal health insurance program for individuals age 65 or older and
certain categories of disabled people. It is administered by the Health Care Financing
Administration (HCFA), Department of Health and Human Services (DHHS). The -

Medicare program has two types of insurance, Part A and Part B. Part A (hospital

insurance) helps pay for inpatient hospital care, some inpatient care in a skilled

nursing facility, skilled home health care, and hospice care. Part B (medical

insurance) covers physician services, outpatient hospital services, and other medical

services and supplies. This report focuses on payments for orthotic body jackets

purchased under Medicare Part B.


Medicare Part B claims are processed by private insurance companies, called carriers,

under contract with HCFA. Carriers are responsible for ensuring that coverage

requirements are met before approving payment. Carriers use a coding system to

process Medicare claims and determine payment amounts. HCFA developed the

coding system, called the HCFA Common Procedure Coding System (HCPCS) in 1983

to bring about uniformity in defining and billing for medical services and supplies. A

supplier places a HCPCS code on a Medicare claim form to designate what type of

supply was rendered to a beneficiary.


Allegation of Inapproptite Billing

In February 1992, the Office of Inspector General (OIG) received an allegation from
a company which provides Medicare billing services to nursing homes. The allegation
was that suppliers were billing Medicare approximately $1,200 per claim for devices
consisting of “nothing more than a $50 piece of foam rubber.” The bills were
submitted to Medicare under HCPCS code L0430. Code L0430 is for a device that is
defined by HCFA as a “Thoracic Lumbar Sacral Orthosis (TLSO), Anterior-Posterior-
Lateral Control (Body Jacket) with interface material custom fitted.”

SCOPE

We focused on HCPCS code L0430 because our analysis of 1991 data for all body
jacket codes showed that code L0430 had the most significant increase in number of
claims. We conducted our inspection between May and October, 1993.


                                           1
METHODOI.OGY

We reviewed all claims for code L0430 contained in HCFA’S 1991 Common Working
File which is a one percent random sample of all Medicare claims. This sample
consists of 120 claims. We dropped 25 of the 120 claims from our sample because
carriers disallowed them for payment. This left us with a sample size of 95 paid
claims.

To determine the purpose of a body jacket and how one should be constructed, we
consulted five licensed orthotists, three of whom were members of the American
Orthotic and Prosthetic Association (AOPA). Orthotic practitioners must have either
a BS or BA degree in Orthotics. Then, they must serve a one-year internship prior to
taking written, oral, and practical examinations. Finally, orthotic practitioners must
take required continuing education courses to maintain certification. AOPA is a
national organization which represents more than 800 allied health care firms that
provide orthotic and prosthetic semices.

To determine what type of devices were supplied to beneficiaries in our sample, we
obtained descriptions from suppliers, nursing homes, and DHHS OIG Office of
Investigations (01). Because some suppliers were under investigation by 01, we used
01 as a source of information rather than contact those suppliers directly. To inspect
the construction and purpose for devices sold under code L0430, we visited two
suppliers not under 01 investigation and two nursing homes. Using the licensed
orthotists and AOPA criteria for the construction and purpose of a body jacket, we
determined whether or not the devices supplied to beneficiaries in our sample, and
billed to Medicare, were body jackets.

To determine whether or not Medicare beneficiaries in our sample had a medical
need for a body jacket, we obtained information from Medicare claims, physician
prescriptions, and Certificates of Medical Necessity (CMNS). Sixty-four of the claims
in our sample were accompanied by CMNS. The prescribing physician’s address is
typically listed on the CMN. Of the 64 CMNS, 55 listed the physician’s address. We
contacted these 55 physicians to verify beneficiaries medical need for body jackets.
Forty of the 55 physicians responded to our questionnaire.

To determine marketing practices of the suppliers that sold devices to beneficiaries in
our sample, we interviewed 44 nursing home administrators by telephone and visited 2.
We also reviewed marketing brochures for each supplier.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           2

                                                             FINDINGS


MEDICARE CLAIMS AND ALLOWED CHARGES FOR ORTHOTIC                                                                                    BODY
JACKETS HAVE INCREASED SUBSTANTIAL Y SINCE
                                         1990

Medicare claims for body jackets paid under HCPCS code L0430 remained relatively
steady until 1990. The number of claims submitted to Medicare increased from 275 in
1990 to 17,910 in 1992--a 6,400 percent increase. Figure 1 illustrates the increase.

                                                                             FIGURE                     1


                       Claims in Thousandk
                20,                                                                                                             1
                                                                                                                        17910


                ,5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                ,~ . . . . . . . . . . . . . . . . . . . . . . . . .                                 10,085




                  5 ... .. .


                     253                                    275
                  0$                                                                                              1
                   1989                                          1990                                            1991      1992

                                                                                            Year




Total Medicare allowed charges for code L0430 also increased significantly since 1990.
Total allowed charges increased from $217 thousand in 1990 to $18 million in 1992--a
8,200 percent increase 2. Figure 2 illustrates the dramatic increase.




   2Thedisparitybetweenpercentageincreasesforclaimsandallowedchargesisattributedto differences
                                                                                             allowedon
individual
        claimsandincreasesin allowed amounts in recent years.

                                                                                          3
                                                FIGURE 2



                   Millions
              20
                                                                                       $18,049,000


              15




              10



                                                         /
               5          ..... .        ,,                  ...,..          ,,, ,,.        ..



                   $191*(XN)        $217,000
               0                                                       1
                   389                   1990                         1991                       199:
                                                  Year




Through September 1993, HCFAreports that about 5,000claims were submitted to
Medicare and$5,2million wasallowed fororthotic body jackets. According to HCF~
the 1993 allowed amounts represents about 60 percent of the expected total for the
year. Therefore, we project that approximately $8.6 million will be allowed in 1993.
This represents a decrease of about 50 percent from the 1992 levels. However, the
projected number of claims submitted and allowed charges still are significantly higher
than the 1990 levels.

NINETY-FIVE PERCENT OF ORTHOTIC BODY JACKET CLAIMS PAID BY
MEDICARE WERE FOR NON-LEGITIMATE DEVICES

Ninety-five percent of our sampled claims (90 of 95) submitted under code L0430,
were for devices which were not orthotic body jackets. Hereafter, we will refer to
these as non-legitimate devices. The remaining 5 percent (5 of 95) were for legitimate
body jackets. We noticed that the legitimate body jackets in our sample were supplied
by certified, licensed orthotists whose primary occupation is supplying orthotic and
prosthetic devices to patients. The non-legitimate body jackets in our sample were
supplied by Durable Medical Equipment (DME) suppliers that primarily supply DME
equipment and supplies, not orthotics.




                                                    4

According to the licensed orthotists and members of AOPA we consulted, a body
jacket should be made of rigid plastic material that conforms to the body and provides
a high de~ee of immobility. It should also be custom fitted, which means that it can
be adjusted to meet the specific needs of a patient. Body jackets are most commonly
used to treat spinal and muscular diseases such as scoliosis and muscular dystrophy.
They are also used to treat injuries to the spine such as vertebra fractures and
compressions, and to facilitate healing following a surgical procedure on the spine or
related tissue.

A legitimate body jacket is illustrated in Figure 3. This body jacket is made of a rigid
plastic material. It applies pressure to certain points along the abdomen and back
limiting motion in the spine. It is custom fitted because it has three adjustable straps
that can be tightened or loosened to apply more or less pressure to certain points
along the abdomen or back, depending on the needs and shape of a patient.



                                      FIGURE     3

                           LEGITIMATE       BODY JACKET




                                            5

We visited three beneficiaries residing in nursing homes to inspect devices they had
purchased through Medicare as body jackets. Oneofthe         devices we inspected is
shown in Figure 4 below. The other two devices we inspected, as well as 87 other
devices supplied to sampled beneficiaries, were almost identical to the device in Figure
4. According to the licensed orthotists and AOPA members we consulted, the device
in Figure 4 is not a legitimate body jacket. It is not properly constructed and does not
serve the medical purpose of a body jacket.


                                          FIGURE 4

                           NON-LEGITIMATE          BODY JACKET




The device in Figure 4 has the following construction features that are inconsistent
with a legitimate body jacket.

       1.	    The     device is constructed of soft material which is not rigid
              and    does not conform to a patient’s body. It consists of
              two    sides, a back and bottom piece that are made of a
              soft   foam material covered in vinyl. Each piece is about
              two    inches thick.


                                               6
      2.�    The device neither conforms to the patient’s body nor
             restricts motion in the spine. We obselved that one
             beneficiary who was using this device was extremely
             slumped over the arm of his wheelchair.

      3.�    The device is not custom fitted because it does not offer
             any adjustability to meet the unique shape of an individual
             or the specific need of a patient.

Device Did Not Seine the Medical Rupose of An OrthotikBody Jacket

HCFA requires that body jacket claims be accompanied by a physician’s prescription
and/or a certificate of medical necessity. A prescription must include a patient
diagnosis, reason the equipment is required, and an estimate of the duration of need.
A CMN typically provides more detailed information on a patient’s condition than that
provided by a prescription. Prescriptions and CMNS must be signed by a physician.

Our analyses of prescriptions, CMNS, and statements by prescribing physicians and
nursing home administrators showed that many of the devices in our sample were
primarily used to keep patients upright in a wheelchair. Ninety-two percent of the
beneficiaries for whom we had CMNS (59 of 64) are listed as wheelchair bound. Sixty-
eight percent of the prescribing physicians who responded to our questionnaire (27 of
40) stated that the device they prescribed was used to keep a patient upright in a
wheelchair.

The orthotists and AOPA members we consulted stated that it is very unusual for a
body jacket to be prescribed for a wheelchair bound person. One orthotist stated that
less than 1 percent of elderly people who need body jackets are wheelchair bound.

The 40 physicians who responded to our survey identified the medical conditions of
the beneficiaries in our sample. They typically identified schizophrenia, anemia,
diabetes, parkinson’s disease, alzheimer’s disease, and dementia. According to
licensed orthotists we consulted, these medical conditions are not normally treated
with a body jacket. The physicians assumed suppliers had billed Medicare for
wheelchair seating devices rather than custom-fit orthotic body jackets.

MEDICARE PAYMENTS FOR NON-LEGITIMATE                   DEVICES EXCEEDED         $7
MILLION IN 1991

In 1991, about 95 percent (90 of 95) of the devices purchased through Medicare under
code L0430 were non-legitimate devices. Total Medicare payments for those devices
exceeded $7 million. Furthermore, assuming that the percent of Medicare claims for
non-legitimate devices remained at 95 percent in 1992, inappropriate payments would
have increased to about $13.7 million.




                                          7

For orthotics, Medicare pays 80 percent of either the actual charge or the fee schedule
amount, whichever is less. A beneficiary, or the beneficiary’s secondary insurance, is
responsible for paying the remaining 20 percent co-payment. Sixty-six percent of the
claims (44 of 67)3 show that Medicaid was responsible for paying the remaining 20
percent co-payment. Therefore, Medicaid funds were also at risk. State Medicaid fee
schedules vary, and we could not determine the precise amount Medicaid paid on
each claim. However, payment of the entire 20 percent co-payment by Medicaid
could have resulted in $670 thousand of inappropriate Medicaid payments in 1991.
We did not determine inappropriate Medicaid payments for 1992 because we did not
know how many Medicaid claims were filed.

Appendix A describes in detail how we determined Medicare and Medicaid payments
for non-legitimate devices.

NON-LEGITIMATE              DEVICES WERE MARKETED                       AS AN ALTERNATIVE                  TO
RESTRAINTS

Eighty percent of the nursing home administrators (35 of 44) we interviewed said the
device was marketed to them as an alternative to restraints. Restraints are prohibited
by the Omnibus Budget Reconciliation Act of 1990 (OBRA ‘90). The Act gave
nursing home residents the right to be free from chemical and physical restraints. We
observed that the significant increase in claims for body jackets occurred shortly after
enactment of OBRA ’90 legislation.

Ninety-four percent of the beneficiaries for whom we had claims in 1991 (63 of 67)
resided in nursing homes. The following statements, taken directly from suppliers’
brochures, indicate that suppliers sold the devices to nursing homes as an alternative
to restraints, not to treat a medical condition.

        “These do not only maintain functional              alipment,    they eliminate the need
        to restrain the resident”

        “Addresses restorative legislative mandates of OBRA ’90”

        “Restraint-free management tool reduces chance of resident inj.uy and non-
        compliance with restraint regulations”




     3Weobtained paper claims for 67 beneficiaries in our sample. Tbe remaining 53 claims were processed
electronically and we were not able to obtain paper claims.



                                                        8
MEDICAL SUPPLIERS USED LOOPHOLES IN HCFA GUIDANCE AND
MONITORING TO CLAIM NON-LEGITIMATE DEVICES AS BODY JACKETS

HCFA!SGeneral DefinitionsAllbwed Suppliensto ClaimlVon-LegitimateDew”cesas Body
Jackxu%

Suppliers were able to claim non-legitimate devices as body jackets because HCFA
had not clearly defined medical necessity and construction of a body jacket. HCFA
classifies body jackets as back braces in section 2133 of the carriers manual. Back
braces are used for the purpose of “supporting a weak or deformed body member or
restricting or eliminating motion in a diseased or injured part of the body.” Suppliers
took advantage of this general definition to assert that their devices were medically
necessary. They said the device met the definition because it supported a patient’s
back. However, most of the devices in our sample were merely used to assist patients
in sitting upright in wheelchairs. According to the orthotists we consulted, a body
jacket claimed under code L0430 is more sophisticated and should do more than
simply support a wheelchair patient.

Some suppliers used HCFA’S general definition for code L0430 to justify that their
devices were legitimate. They alleged that the devices were custom fitted because the
arm cushions came in different heights. However, the devices did not conform to a
patient’s body. According to the orthotists we consulted, custom fit means that the
device is designed to conform to the shape of a patient’s body, and the device must
help meet a patient’s specific medical need.

Linited MonitoringAiYowedPaymenfifor Non-@”tinzate Dm”ces

In 1991, when claims for body jackets began to significantly increase, HCFA only
required that carriers look for aberrant payment trends for the upper three percent of
codes with the highest Medicare payments. Since body jacket codes were not in the
upper three percent, carriers did not rapidly detect the increase in code L0430 claims.
In addition, while carriers could look at their own payment trends, there was no
mechanism to compare trends for all carriers and, therefore determine if the number
of orthotic body jackets claimed were excessive.

Most carriers learned of the abusive claims from physicians and beneficiaries, not from
their own internal reviews. Once they were told about the abuse, they reviewed
payment trends. These payment trends showed the increase in the number of claims
and identified suppliers who were submitting large numbers of body jackets claims. In
early 1992, when carriers began to detect claims for non-legitimate devices, they
established medical reviews to curtail payments. For example, some carriers in our
sample contacted physicians, some required that a picture of the device accompany a


    4Thoracic Lumbar Sacral Orthosis, Anterior-Posterior-Lateral   Control (body jacket) with interface material
custom fit.




                                                          9

claim, some coded all L0430 claims under a lower reimbursed code, and a few simply
required that a prescription accompany the claim. Some suppliers were referred to
the OIG for investigation. However, medical suppliers claims for non-legitimate
devices continued to increase through 1992. In 1993, preliminary data on body jacket
claims and payments indicate a decrease of about 50 percent from the 1992 level.
However, the claims and payments remain significantly higher than the 1990 level.

RECENT HCFA EFFORTS MAY REDUCE                   INAPPROPRIATE      PAYMENTS

HCFA recently took steps to reduce inappropriate payments for body jackets, as well
as other orthotic, prosthetic, and DME items. In June 1993, HCFA notified the
regional fraud and abuse coordinators of the abuse of body jacket codes who, in turn,
notified the carriers. On October 1, 1993, HCFA started processing DME, orthotics,
and prostheses claims through four regional carriers called the Durable Medical
Equipment Regional Carriers (DMERCS). The DMERCS will process claims formally
processed by 33 carriers. HCFA plans to phase-in all claims by June of 1994. One
DMERC, in addition to claims processing functions, will track spending and utilization
trends for all DMERCS. This DMERC will be referred to as the Statistical Analysis
DMERC (SADMERC).

For payment through the DMERCS, HCFA identified 100 DME, orthotic, and
prostheses items which had the highest level of Medicare payments. Further, the
DMERCS developed coverage and medical review guidelines to be published in a
DMERC manual. Code L0430 was identified as one of the top 100 items. The
guidelines give DMERCS basic characteristics of a body jacket, a definition of custom
fit, and coding guidelines. The guidelines also give medical indications for a body
jacket such as “to reduce pain by restricting mobility of the trunk,” or “to otherwise
support weak spinal muscles and/or a deformed spine.”

In addition, HCFA required that the DMERCS perform postpayment review activities.
Through enhanced computer capabilities, the DMERCS will have access to national
and local carrier claims data. This will enable DMERCS to compare local data to
national data for all codes. As a result, drastic increases in claims such as those
experienced for body jackets in 1991 and 1992 can be detected and reviewed early for
propriety  of payment.  In the past, data was run off a mainframe computer and could
only be accessed semi-annually. The new system will be available on personal
computers and will allow greater flexibility for reviewing and determining that
payments are appropriate.




                                           10

                   RECOMMENDATIONS

Preliminary data for the first half of 1993 for body jacket claims and allowed charges
show a decline from the 1992 level by about 50 percent. We did not determine the
cause of the decline. However, it may have resulted from actions taken by carriers
late in 1992 to assure propriety of payments for orthotic body jacket claims, and from
market saturation.

HCFA’S recent establishment of the DMERCS and related guidance should help
further reduce payments for non-legitimate devices in the future. However, the
number of claims and allowed charges remains significantly higher than the 1990 level,
and it is likely that non-legitimate devices are still being paid by Medicare. If the
percentage of inappropriate body jacket claims being paid by Medicare remains as
high as it was in 1991, Medicare could stand to lose at least $7 million annually.
Therefore, we recommend that HCFA require the DMERCS to

Closely monitor claims for body jackets. A monitoring system that includes the
following could be implemented by the SADMERC.

         �	
              Routinely analyze payment trends for body jacket codes to
              identify abusive patterns and aberrant providers.

         �
              Provide other DMERCS an early warning of abusive practices.

         �	
              Develop methods to closely monitor suppliers who have engaged
              in abusive practices.

If inappropriate orthotic body jacket claims are not discontinued in FY 1994, HCFA
should implement more stringent controls such as

         �	
              requiring physicians to obtain prior approval from DMERCS for
              body jackets, and/or

         �	
              programming computer systems to identify and allow payment for
              code L0430 claims only when they match appropriate medical
              diagnoses.

Finally, HCFA should inform the medical CQmmunity about non-legitimate devices
coded under HCPCS code L0430 and indicate its intent to closely monitor the use of
body jacket codes, as a deterrent to further abuse.

Claims that we found inappropriate   during our study will be turned over to HCFA for
recovery.
                  AGENCY               COMMENTS

The HCFA Administrator agreed with our recommendations.        He stated that
regionalization of durable medical equipment claims processing and development of
medical review policies will strengthen HCFA’S ability to monitor use of and payment
for orthotic body jackets. We encourage HCFA to take immediate corrective action if
their monitoring shows that inappropriate body jacket claims have not discontinued.

In response to HCFA’S technical comments, we made appropriate revisions to the
report. Appendix B contains the full text of the HCFA Administrator’s comments.




                                         12

                                APPENDIX                   A


          MEDICARE            PAYMENTS FOR NON-LEGITIMATE                DEVICES


1991 Paymentsfor Non-~”timate          Dm”ces

1.	   Add total allowed amounts in the HCFA Part B Extract Statistical System
      (BESS) 1 percent file and then subtract all allowed amounts for the legitimate
      claims to determine total allowed for non-legitimate claims.

      $92,262            (Total allowed entire 1 percent file)
      - 4,499            (Total allowed for legitimate claims)
      ---------
      $87,763            (Total allowed non-legitimate claims)


2.�   Multiply total allowed for non-legitimate claims by 100 to get total
      allowed in universe.

      $87,763     x   100 = $8,776,300 (Average allowed in universe)


3.�   Multiply total allowed in the universe by 80 percent to determine total
      Medicare payments for non-legitimate devices.

      $8,776,300 x .80 = $7,021,040 (Total Medicare payments for non-
                                       legitimate devices)


Confiiknce Interval&:
 Universe Size         Sample Size       Estimated          Lower 95%         Upper 95%
                                         Overpayment        Confidence        Confidence
                                                            Interval          Interval

 12,000                 120              $7,021,040         $6,261,629        $7,780,450




                                             A-1

1992 Paymentsfor Non-@”tirnate Devices


1.	    Total allowed amount for HCPCS code L0430 in the 100 percent HCFA
       BESS file was $18,049,881.


2.�    From the 1991 data, we found 95 percent (standard error of .021) of the
       payments were made for non-legitimate devices.


3.�    Apply this percentage (95 percent) to the 1992 allowed amounts to get
       the total allowed amount for non-legitimate devices.

       $18,049,881 x .95 = $17,147,386 (Allowed for non-legitimate   devices)


4.�    Apply the 80 percent Medicare portion to determine total Medicare
       payments for non-legitimate devices.

       $17,147,386 x .80 = $13,717,909 (Total Medicare payments for
                                         non-legitimate devices)



Con@ience Intemak


  Estimated Overpayment�       Lower 959%Confidence          Upper 95% Confidence
                               Interval                      Interval

  $13,717,909                  $13,125,872                   $14,338,824




                                        A-2

          1991 MEDICAID      PAYMENlll     FOR NON-LEGITIMATE          DEVICES


1.       Add total Medicaid allowed amounts in the HCFA BESS 1 percent file.

         $34,353 (Total Medicaid allowed non-legitimate claims)


2.       Multiply total Medicaid allowed for non-legitimate claims by 100 to get
         total allowed in the universe.

         $34,353 x 100 = $3,435,800 (Total allowed in universe)

3.       Multiply total allowed in the universe by 20 percent to determine total
         Medicaid payments for non-legitimate devices.

         $3,435,800 x .20 = $687,160 (Total Medicaid payments for
                                           non-legitimate devices)



Con.ce       Intervak
 Universe Size       Sample Size       Estimated         Lower 95%          Upper 95%
                                       Overpayment       Confidence         Confidence
                                                         Interval           Interval

 12,000              120               $687,000          $495.674           $878,325




                                           A-3

APPENDIX    B




HCFA COMMENTS




      B-1
      .�* @qm?.o& .                                                                          Health   Care
. ..,+-
  *                     DEPARTMENTOF HEALTH& HUMAN SERVICES                                  Financing   Administration
 :
 :
  -0   -@
   %
     %ztid,a
      >                                                                                      Memorandum
            Date

                       Bruce C. VIadeck-
            From                           /
                       Administrator     \%

            Subject	   Office of Inspector General (OIG) Draft Report:     “Medicare Payments for Orthotic
                       Body Jackets” (OEI-O4-92-O1O8O)
            To
                       June Gibbs Brown
                       Inspector General


                       We reviewed the above-referenced draft report which analyzed claims and charges
                       for orthotic body jackets. The report correctly identifies anumber of instances of
                       overutilization and abuse; as a result, Medicare payments for orthotic body jackets
                       have increased tremendously in recent years.

                       We are aware of the increased number of claims for body jackets and believe that
                       as a result of regionalization of durable medical equipment claims processing, and
       /’              the development of regional medical review policies for spinal orthoses, we have
  /’                   strengthened our ability to monitor the use and payment of orthotic body jackets.
  \
                       Our detailed comments on the report findings and recommendations are attached
                       for your consideration. Thank you for the opportunity to review and comment on
                       this draft report. Please advise us if you would like to discuss our position on the
                       recommendations at your earliest convenience.

                       Attachment




                                                                                                                      -.�          7
                                                                                                                             .-,
                           **�

                                                                                                                      .,�
                                                                                                                      :,,�
                                                                                                                ‘,,    i�



                                                                                                                                       :    “a
                                                                                                                                   .-
                                                                                                                                   . .,
                                                                                                                                   ,-.1 I
.�




               Comments on Office of Inspector General (OIGl Draft Report:
                       Medicare Pawn ents for Orthotic Body Jackets
                                   (OEI-O4-92-O1O8O)


     Recommendation    1

     The Health Care Financing Administration (HCFA) should require the Durable
     Medical Equipment Regional Carriers (DMERC) to closely monitor claims for body
     jackets, including analysis of payment trends, provision of an early warning of
     abusive practices, and monitoring of suppliers who have engaged in abusive
     practices.

     HCFA Response

     We concur, and have instituted several methods to detect payment trends and
     identi& suppliers who have exhibited abusive practices.

     As part of its contract responsibilities, the Statistical Analysis (SA) DMERC closely
     monitors claims for body jackets, produces standard quarterly reports, and provides
     analysis of data to identify trends and aberrances.      Additionally, the SADMERC
     conducts postpayment medical review for national suppliers in order to determine if
     future corrective action is needed.

     By producing standard quarterly reports along with monthly ad hoc reports, the
     SADMERC assists the DMERCS in identifying potential abusive practices, and
     monitors those suppliers that appear to engage in abusive practices. The
     SADMERC will continue to be a resource for the DMERCS to detect patterns of
     abusive billing by suppliers.

     In addition to the regionalization initiative (creation of the DMERCS and the
     SADMERC), HCFA has issued several new codes to better distinguish the various
     types of products currently on the market. Claims for some classes of orthotic
     devices, previously paid for by the local carriers, are now denied by the DMERCS.
     Claims for those devices that are covered by the DMERCS must be submitted with
     additional medical documentation including, but not limited to, the following: a
     description of the item and the diagnosis; a description of the spinal problem, the
     brand name and model number or photo of the actual device; and features of the
     orthosis and medical necessity of each.
     ,*�
.�




           Page 2

           Recommendation    2

           If inappropriate orthotic body jacket claims are   not discontinued in FY 1994, HCFA

           should implement more stringent controls, such     as requiring physicians to obtain

           prior approval from DMERCS for body jackets,        and/or programming computer

           systems to identify and allow payment for code     L0430 claims only when they match

           appropriate medical diagnoses.


           HCFA Response


           We agree that there is a need for stringent controls, and we feel that we have the

           necessary control mechanisms in place to detect increased use of these products.


           While the specific actions recommended were examples or suggestions, we wish to

           point out that we do not agree that we should seek the legislation necessary to

           institute a prior approval program for body jackets as a means to impose more

           stringent controls for inappropriate claims. We anticipate that because of the

           regionalization and development of regional policy for orthotic body jackets, we will

           see decreased utilization of the body jackets. We are confident that the regional

           policies presently in place are at least as good as a prior approval program would

           be.


           Recommendation    3


           HCFA should inform the medical community about nonlegitimate devices coded

           under HCPCS code L0430 and indicate its intent to closely monitor the use of body

           jacket codes, as a deterrent to further abuse.


           HCFA Response


           We concur. We will encourage the DMERCS to use their monthly bulletins to

           inform the medical community of inappropriate use of devices such as orthotic body

           jackets.


           Technical Comments:


           Page 10, first full paragraph: change “phase-in claims by March’ to June. Decisions

           have been made recently to delay the transition of several States to the new

           regional carriers.


           Page 10, last paragraph:   delete the first sentence, which refers to “focused medical

      . ,.�
.,�



              Page 3

              Page 11, last sentence of the second paragraph should read, “Ifinappropriate
              payments fororthotic body jackets continue to increase, Medicare could standto
              lose at least $7 million annually.”
